<html>
<title> - AMERICA'S WATER INFRASTRUCTURE NEEDS AND CHALLENGES: FEDERAL PANEL</title>
<body><pre>[Senate Hearing 115-443]
[From the U.S. Government Publishing Office]








                                                        S. Hrg. 115-443

                  AMERICA'S WATER INFRASTRUCTURE NEEDS
                     AND CHALLENGES: FEDERAL PANEL

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 17, 2018

                               __________

  Printed for the use of the Committee on Environment and Public Works











[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]













        Available via the World Wide Web: http://www.govinfo.gov 
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
30-567PDF                WASHINGTON : 2019                 
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director 
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            JANUARY 17, 2018
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2

                               WITNESSES

Ryan Fisher, Principal Deputy Assistant Secretary of the Army 
  (Civil Works) And Acting Assistant Secretary of the Army (Civil 
  Work), United States Department of the Army....................     5
    Prepared statement...........................................     6
    Response to an additional question from Senator Barrasso.....     9
    Responses to additional questions from:
        Senator Carper...........................................    10
        Senator Moran............................................    23
        Senator Sanders..........................................    25
        Senator Whitehouse.......................................    26
Lieutenant General Todd T. Semonite, Commanding General and Chief 
  of Engineers, U.S. Army Corps of Engineers.....................    31
    Responses to additional questions from:
        Senator Barrasso.........................................    33
        Senator Carper...........................................    33
    Response to an additional question from Senator Sanders......    47
    Responses to additional questions from:
        Senator Rico.............................................    48
        Senator Whitehouse.......................................    48

                          ADDITIONAL MATERIAL

Statement of the American Society of Civil Engineers.............    85

 
   AMERICA'S WATER INFRASTRUCTURE NEEDS AND CHALLENGES: FEDERAL PANEL

                              ----------                              


                      WEDNESDAY, JANUARY 17, 2018

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(chairman of the committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Boozman, Wicker, Fischer, Moran, Rounds, Ernst, Sullivan, 
Shelby, Cardin, Sanders, Whitehouse, Merkley, Gillibrand, 
Booker, Markey, Duckworth, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today we are holding our second hearing in as many weeks 
highlighting the importance of water infrastructure and of 
passing a new Water Resource Development Act, or WRDA, in 2018. 
WRDA is a bill that authorizes projects and funding for the 
Army Corps of Engineers Civil Works Program.
    Last week, the Committee heard testimony from a variety of 
private sector stakeholders representing inland waterways, 
ports, rural areas, as well as those promoting ecosystem 
restoration projects. Their testimony provided further evidence 
that it is critical that Congress keep with the tradition of 
biennial WRDA consideration and passing such legislation this 
year.
    Today we will hear from the Federal officials on how we can 
best address water infrastructure needs and challenges in any 
WRDA legislation. The Senate Environment and Public Works 
Committee has oversight over much of the Corps' mission in 
water infrastructure, including locks, dams, flood migration, 
inland waterways, and ports. This hearing provides us an 
opportunity to hear from the Army and the Corps on what they 
perceive as the best solutions to the needs and challenges 
facing important water infrastructure projects spread all 
across America.
    As I said at least week's hearing, unlike other contentious 
issues, historically, Republican and Democratic members of this 
Committee have been able to work together to pass WRDA 
legislation. I also noted last week that this legislation 
impacts every member of this Committee's diverse 
constituencies.
    To illustrate, Congress must prioritize the prevention of 
flooding and the modernization of our Nation's levees, which 
protect people's lives and their livelihoods across the 
Country. We can't allow a repeat of the circumstances that led 
to the flooding in Worland, Wyoming and the evacuation of 80 
citizens when the Big Horn River flooded due to ice jams.
    We must also not lose sight of western States' water supply 
and consumption needs. My constituents in Wyoming, as well as 
others, are well too familiar with the challenges associated 
with providing long-term water supply and storage.
    Let's not forget that sediment buildups continue to 
decrease the storage capacity of western reservoirs. An 
adequate and reliable water supply is necessary if western and 
rural communities and their economies are going to continue 
growing.
    The Corps and the Bureau of Reclamation should continue 
sharing related information and work together in the hopes of 
solving these water supply problems.
    To reiterate, we all have an important interest in 
maintaining the Nation's water infrastructure. Let us commit 
ourselves and our resources toward legislating a bipartisan 
WRDA bill in 2018. Too much is at risk for us to abdicate this 
responsibility of ensuring the public's safety, as well as 
ensuring the flow of goods, commodities, and raw materials 
through our inland waterways and ports.
    I will now turn to the Ranking Member for his testimony. 
Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    Gentlemen, it is great to see you both and we thank you. 
You will be working extra hard until we get Val confirmed to 
help you out a little bit. But thank you so much for being here 
and for your good work and your service.
    This is the second of two hearings, as we know, and one of 
the great things about hearings on WRDA is this is something we 
can work on together. It is not so much a red State, blue 
State, it is not so much Democrat or Republican; it is just 
important stuff. And we realize that and we have a good history 
of that thanks to Senator Inhofe and Barbara Boxer and others 
before them.
    When I first heard the term WRDA, I said, what is that? I 
am not a big fan of acronyms. I like this one. But WRDA is 
another one of those funny sounding acronyms that we all use 
too often in Washington. While it might sound funny, the truth 
is what is incorporated into a WRDA bill has a huge effect, 
oversized effect on the daily lives of a lot of us and our 
constituents.
    For instance, Members of Congress, perhaps like those of us 
here today, talk about critical dredging. That may sound 
boring, but if a ship is trying to get into this Country 
carrying fruit, carrying vegetables, carrying meat, carrying 
seafood, a number of other foodstuffs, and our ports are unable 
to be reachable, that means prices at the grocery store might 
go up. And if prices at the grocery store rise, families who 
might already be struggling to put food on their table will 
have to figure out how to stretch their budget just a little 
bit further.
    For most of all people among us, that ship being able to 
reach its port isn't just a policy decision here in Washington, 
which is what we focus more on, but could be the difference 
between a hungry child or a healthier child.
    Last week we discussed how more than 99 percent of the U.S. 
overseas trade volume moves through coastal channels that the 
Army Corps of Engineers maintains. I think that is amazing. I 
heard that number and I was amazed. Think about it, 99 percent. 
Additionally, the Corps' inland waterways and locks form a 
freight network, think of it as a water highway, connecting 
waterways and ports, and providing direct access to 
international markets. They also serve as critical 
infrastructure for the U.S. military, as we know.
    But the Corps does more than just conduct navigation 
projects. The agency is also involved in flood risk management, 
environmental restoration, among others. Navigation, however, 
makes up the most significant portion of the Corps' authorized 
work. Unless the Country experiences flood events, navigation 
work is the most visible activity in the Corps' portfolio on a 
day-to-day basis.
    Unfortunately, as we all know, Federal funding for new 
project construction and major rehabilitation has steadily 
declined. Corps activities have shifted to operations, to 
maintenance, and rehabilitation of existing infrastructure, 
while a backlog of deferred maintenance has continued to grow 
ever since. As a result, much of the Corps' infrastructure is 
now exceeding its useful lifespan.
    Our waterways are the backbone of our economy, and the 
Corps is often an invisible agency keeping much of it together 
with limited resources. New estimates that my staff received 
after last week's hearing reveal that the Corps' overall 
construction backlog is now in the neighborhood of $96 billion 
worth of projects. If provided, this money would only address 
current needs; it does not include any of the funds that are 
needed for future investments.
    We had a chart we used last week from the American 
Association of Port Authorities, a beautiful chart, but a 
little busy, a little busy. This one is a little less busy. But 
it illustrates, I think, very well what I am about to say, and 
that is, according to the American Association of Port 
Authorities, in port infrastructure alone, our Country is 
expected to need over $65 billion in investment over the next 
decade to ensure a nurturing environment for U.S. job creation 
and economic growth.
    As we heard last week, the American Society of Civil 
Engineers infrastructure report card tells an even more 
unsettling story. With dams, levees, and inland waterways 
receiving a grade of D, as in deplorable, their report card 
estimates that $162 billion of investment is needed in these 
types of infrastructure, 162.
    As I said last week, with an annual budget that hovers 
around $4.6 billion, the Corps has a seemingly impossible math 
problem to overcome. Or maybe we have a seemingly impossible 
problem to overcome, and that is actually being willing to 
spend money for the things that we need, actually truly need. I 
like to say if a thing is worth having, they are worth paying 
for.
    This Committee has worked hard on a bipartisan basis in 
recent years to return to the practice of developing WRDA bills 
in a timely manner. I am encouraged that we will continue that 
tradition in 2018 so that the ports, channels, waterways, and 
flood management initiatives on which so many States, 
businesses, and Americans depend can keep moving ever more 
goods and people without interruption.
    I look forward to hearing from our witnesses, both of you. 
It is great to see you again. I look forward to hear your plan 
to overcome the more than $100 billion problem and enable us to 
invest in our future. It will be interesting to see how you do 
it on $4.5 billion a year.
    We must work in a bipartisan, bicameral fashion with the 
Administration to really address these concerns, build a 
consensus on a path forward in a smart, cost-efficient way. I 
would conclude by repeating what I said before: if things are 
worth having, they are worth paying for. This is worth having.
    Thank you.
    Senator Barrasso. Thank you, Senator Carper.
    In just a moment we will hear from our two witnesses: Ryan 
Fisher, the Principal Deputy Assistant Secretary of the Army 
for Civil Works and Acting Assistant Secretary of the Army for 
the United States Department of Army, as well as Lieutenant 
General Todd Semonite, who is the Chief of Engineers and 
Commanding General of the U.S. Army Corps of Engineers.
    Before we get to the opening statements, I would like to 
first welcome Mr. Fisher, who recently took over as the Acting 
Assistant Secretary of the Army for Civil Works in November 
2017. While it is critical that we confirm a permanent 
Assistant Secretary as soon as possible, there is important 
work that needs to be done in the meantime, and we appreciate 
you filling in today and testifying before this Committee.
    I would also like to welcome back to the Committee 
Lieutenant General Semonite, who last testified before this 
Committee at a Transportation Infrastructure Subcommittee 
hearing last May regarding the economic benefits that water 
resources have for local communities and for State economies, 
as well as the national economy.
    So, I welcome you both here today and remind you that the 
full version of your written testimony will be made part of the 
official hearing record. Please keep your statements to 5 
minutes so that we may have time for questions. Look forward to 
hearing from you.
    Senator Carper. Mr. Chairman, could I just say one thing?
    Senator Barrasso. Senator Carper.
    Senator Carper. The Finance Committee is meeting right now. 
We are having a markup on a couple of key nominees, and I am 
going to have to slip out probably close to 10:30. I will be 
back, but I don't want to be disrespectful, it is just I wear a 
couple of different hats around here, like you do. Thanks so 
much.
    Senator Inhofe. Mr. Chairman, let me also say that there 
are nine members of this Committee that are also on the 
Commerce Committee, and it seems like we are always meeting at 
the same time, so you are going to see us disappearing and 
reappearing during the course of this hearing.
    Senator Barrasso. Mr. Fisher, please proceed.

STATEMENT OF RYAN FISHER, PRINCIPAL DEPUTY ASSISTANT SECRETARY 
OF THE ARMY (CIVIL WORKS) AND ACTING ASSISTANT SECRETARY OF THE 
    ARMY (CIVIL WORK), UNITED STATES DEPARTMENT OF THE ARMY

    Mr. Fisher. Thank you. Mr. Chairman, Ranking Member Carper, 
members of the Committee, I am honored to testify before you 
today on the water infrastructure needs and challenges facing 
the Nation. I am joined today by Lieutenant General Todd 
Semonite, Chief of Engineers. He will also provide a short 
opening statement.
    As the Chairman mentioned, I was sworn in as the Principal 
Deputy Assistant Secretary of the Army for Civil Works in 
November and am currently serving as the Acting Assistant 
Secretary as well, and I very much look forward to working with 
this Committee as you move toward a possible WRDA bill.
    The Corps of Engineers has played a significant role in the 
development of the Nation's water resources. The Civil Works 
program of the Corps has three main missions: commercial 
navigation, flood and storm damage reduction, and aquatic 
ecosystem restoration. In this regard, the Corps work with our 
Nation's coastal ports to maintain their channels, operates and 
maintains the inland waterways, supports State and local flood 
risk reduction efforts, works to restore significant aquatic 
ecosystems, and operates and maintains multipurpose dams and 
the reservoirs that are behind those. Additionally, the Corps 
is one of the top Federal providers of recreation in this 
Country.
    The Corps constructed much of its civil works 
infrastructure in the first half of the 20th century, so, as 
you can imagine, the Corps dedicates a significant amount of 
its resources to maintain those key features of this 
infrastructure.
    My office is working with the Administration as it 
continues to work on policy and administrative changes that can 
improve infrastructure delivery to the Nation, and Lieutenant 
General Semonite can elaborate a few examples where the Corps 
is making improvements within its regulatory program, as well 
as how it assists others in granting permission to modify 
existing civil works projects.
    The way that we use our water resources can affect the 
Nation's economy, its environment, and public safety. The Army 
and the Corps stand ready to help in addressing the water 
resource challenges of the 21st century, and I look forward to 
working with you on this very important issue, and again I 
thank you for the opportunity to appear here and testify today. 
Thank you.
    [The prepared statement of Mr. Fisher follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
 
    Senator Barrasso. Thank you, Mr. Fisher.
    General Semonite.

 STATEMENT OF LIEUTENANT GENERAL TODD T. SEMONITE, COMMANDING 
  GENERAL AND CHIEF OF ENGINEERS, U.S. ARMY CORPS OF ENGINEERS

    General Semonite. Chairman Barrasso, Ranking Member Carper, 
and distinguished members of the Committee, it is my pleasure 
to be here today, accompanied by Mr. Fisher, to provide 
testimony on the significance of the Water Resources 
Development Act, which provides the United States Army Corps of 
Engineers valuable authorities to implement the broad Civil 
Works program.
    As Mr. Fisher mentioned, the Corps has played a significant 
role in the development of the Nation's water resources. This 
infrastructure is a vital component of our national economy, 
enabling the low-cost shipment of goods through our coastal 
ports and on the inland waterways, reducing the flood risk to 
communities and businesses, and restoring aquatic ecosystems.
    I have been in command of the Corps now for just over a 
year and a half, and I continue to be amazed by the breadth and 
complexity of the Civil Works program, as well as the expertise 
and dedication of the professionals that work in our 
organization. It is my belief that the credibility of the Corps 
is measured by our ability to deliver results that are on time, 
on budget, and of exceptional quality. In order to achieve 
these standards, the Corps continues to evaluate itself on how 
we can best accomplish these outcomes. To be most effective at 
delivering the Nation's water infrastructure needs, the Corps 
must become more efficient and consider new ways to prioritize, 
finance, and incentivize investments in water resource 
infrastructure.
    The Corps has sought to review and apply a wide array of 
authorities provided in recent Water Resource Development Acts 
in a diligent manner. We are rapidly approaching completion and 
communication of an implementation guidance for both the 2014 
and the 2016 Acts. Our team has endeavored to make substantial 
improvements in tracking and accelerating this progress, and, 
looking ahead, I believe that we can continue to improve our 
methodologies.
    The Corps is also working to develop policy and 
administrative advancements that can improve infrastructure 
delivery. More specifically, we are looking internally at our 
policies, regulations, organizations, and procedures in order 
to identify opportunities for increased efficiency and 
effectiveness. These efforts include reducing redundancy and 
delegating authority to decisionmaking to the most practical 
and appropriate level. Several examples include streamlining 
the review process for potential modifications to Civil Works 
projects and seeking improvements to the execution of the 
regulatory program.
    The Corps is fully committed to addressing the water 
resource challenges of the 21st century and seeks to evaluate 
opportunities to be more efficient and effective in the 
delivery of the Civil Works program. We recognize the 
significance of infrastructure investment to the Nation's 
economy and we look forward to working with this Committee as 
it develops a Water Resource Development Act for 2018.
    Thank you for allowing me the time today to address the 
Committee. 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Barrasso. Well, thank you very much to both of you 
for your testimony. We have a number of members here with lots 
of interest and will ask about certain projects that are going 
on.
    I would like to start. General Semonite, rural communities 
in Wyoming affected by ice jam flooding, the city of Worland 
that you are very familiar with, they are anxious to see 
projects built under the Ice Jam Prevention and Mitigation 
Pilot Program authorized by Section 1150 in the WIIN Act. Could 
you just give us an update of the status of the Corps' 
implementation of this Ice Jam Prevention and Mitigation Pilot 
Program?
    General Semonite. Yes, sir. So, right now we have four 
pilots that we are working. One of these is an active pilot. It 
is in Mile City, Montana and it goes back to fully look at some 
innovative approaches to be able to do ice jams. Worland, 
Wyoming is clearly one of the ones that we want to continue to 
keep working. We are pending new start approval and funding 
right now, but we have received a request from a letter to be 
able to put this in the CAP data base and continue to work this 
out.
    There is a third one in Platte River, Nebraska and a fourth 
one in Yellowstone River, Montana to be able to continue to 
find, I think, innovative ways. And you and I have talked about 
this in the past. We have to be able to figure out how can we 
use some of these emerging technologies to be able to try to 
bring down this disaster response.
    I have also personally talked to my Cold Regions Laboratory 
in Hanover, New Hampshire on ways that they can do this, 
innovative approaches, and continue to infuse those in there. 
We are certainly willing to do up to ten of these pilots. Right 
now we have only really seen four different communities that 
are interested. There is a cost share to this, so that is where 
the communities have to be able to find available funds. But we 
are committed to continue to make progress in this ice jam 
initiative to be able to bring down that risk.
    Senator Barrasso. Thank you.
    Mr. Fisher, since the General mentioned the CAP, the 
Continuing Authorities Program, I just want to ask you a little 
bit about that, because, as this is carried out by the Corps, 
it is vital to many rural communities. In particular, one of 
its several authorities concerns flood risk management 
challenges. What are your plans to help ensure that flood risk 
management projects that are backlogged in the CAP program 
queue are studied and billed in an efficient manner? And is 
there anything Congress can do to help the program succeed?
    Mr. Fisher. So, yes, sir, the backlog is real, as was 
mentioned earlier, and it applies to every program, CAP 
included. I believe you are referencing the Section 205 flood 
risk program. The Administration, we are open to everything, 
basically. We have seen opportunities for contributed funds 
agreements, where non-Federal interests can contribute money 
toward construction, or even operation and maintenance in some 
cases. There is a lot of discussion, obviously, of the P3 
public-private partnerships that this Administration is open to 
pursuing, as well. But as you mentioned, yes, $96 billion 
backlog and a budget that is roughly $5 billion, $6 billion a 
year, that is very real and the Administration looks forward to 
working with this Committee to find innovative ways to bolster 
that CAP program and other programs as well.
    Senator Barrasso. General Semonite, rural communities still 
face challenges associated with providing long-term water 
supply and storage. Federal water storage facilities out west 
continue to lose existing space as a result of sediment 
buildup. This is a major problem for western States' economies 
where there are rapidly growing populations enlarging energy 
industries, agriculture operations.
    In 2016, Section 1115 of the Water Infrastructure 
Improvements for the Nation Act was enacted to help address 
this problem by creating the pilot programs to enable removal 
of sediment in Corps and Bureau of Reclamation reservoirs. Can 
you give us a little status on how things are going there?
    General Semonite. Yes, sir. And we are worried about 
sediment buildup. I mean, the Nation has spent a lot of money 
building some of these structures. We want to make sure, first 
of all, we are optimizing that capacity. The more sediment goes 
in, obviously, the less water you can keep in there or the less 
flood control capacity. On the other hand, that continues to 
put pressure on the backside of these dams. Wherever we can 
mitigate that, we want to do it. We need to do it in an 
environmentally sensitive way. And the particular WRDA you are 
talking about does allow us to look at 10 different pilots to 
be able to go back and look at how can we remove sediment from 
behind dams. To be honest with you, though, we have not found 
partners right now that necessarily want to go into those 
pilots. So, we want to continue to stay open to that.
    One of the things we do want to do, though, is look at 
those technologies. We have an environmental advisory board. We 
bring in some of the best from academia that are out in the 
Nation. I met with them in the Everglades last week, and some 
of the technologies we have seen in some areas where they are 
actually taking sediment, pumping it right over that structure 
and letting nature put that sediment back down in there. Now, 
we have to think about the environmental parts of that, but 
this might not be where you have to come in and dredge out the 
back of that dam and then find a way of getting rid of it; but 
how can you use regional sediment management to somehow let 
nature refresh where that sediment needs to go, and then you 
are really solving two problems with one.
    So, this is some of the innovative stuff we have to do to 
find out. Don't just do it the old way, just the expensive way; 
how can we think out of the box and still do it so it is 
environmentally friendly.
    Senator Barrasso. Thank you.
    Senator Carper.
    Senator Carper. Question, if I could, for Mr. Fisher. Have 
you ever been to Delaware?
    Mr. Fisher. Sir, I have not, not in this capacity.
    Senator Carper. Have you ever been to Maryland?
    Mr. Fisher. Yes.
    [Laughter.]
    Senator Carper. Well, you have been to Delmarva, but not to 
the Del portion of Delmarva.
    We are proud of our beaches. We have, the last time I 
checked, more five-star beaches in Delaware, believe it or not, 
than, I think, maybe any other State. And there is some pretty 
good competition around us, so that is pretty good talking 
stuff.
    Senator Cardin has a lot of interest in beach nourishment 
and beach replenishment, and certainly so do a lot of States up 
and down the East Coast. But for us in our State, we have maybe 
even more interest in the construction of a dune system that 
actually helps protect our beaches, not just our beaches, from 
loss down to Ocean City line, the Maryland line, but a dune 
system that protects not just our boardwalks, not just our 
businesses in the coastal towns, not just the folks who live 
there, our infrastructure, roads, highways, bridges, water, 
sewer, but all the above. And what we found out in the money 
that we spend in dune protection for our coastal towns, the 
cost of that is not cheap, but the cost of that is small 
compared to the cost of replacing one major hotel. So, it is 
really cost-effective.
    I don't know that we do as good a job as we ought to be 
able to do on cost-benefit ratio, but here is my question. And 
if you can't answer this one right off the top of your head, 
then I will ask you to do it for the record. But it is 
important to us and it is important certainly to other States 
up and down the East Coast. But beach nourishment projects tend 
not to compete well in benefit-cost ratio analysis, which, 
compared to larger projects like ports. We have a great 
interest in ports as well, like the Port of Wilmington. How 
should we update or how could we update the benefit-cost ratio 
to incorporate more value from these types of projects into the 
assessment?
    Mr. Fisher. Certainly. And I probably will have to do some 
research on this and get back to you with a fuller answer. BCR, 
as you know, is about maximizing return on investment; it is an 
opportunity cost calculation, and we certainly want to be 
looking at all the benefits of those dune projects and that 
sort of thing to make sure we are calculating all those 
effectively. But, yes, I will commit to providing you further 
information as I further research and briefed on that topic. 
Thank you.
    Senator Carper. We look forward to that soon. Thank you.
    General Semonite, you want to make a quick comment on that?
    General Semonite. Sure.
    Senator Carper. Let me just say again Delaware has a love 
affair with the Army Corps of Engineers. We just love the folks 
who work out of your Philadelphia office and just value very 
much the wonderful work they do not just for us, but up and 
down the Delmarva. Thank you.
    General Semonite. Sir, to address your issue, and I think a 
theme that I would want to stress today is that just as you 
said up front, $96 billion of construction backlog, this 
Country can't afford that, so we have to find innovative ways 
of having some of the stakeholders put some skin in the game. 
And if they are able to do that and somehow we can change the 
benefit-cost ratio to a point where now their project is able 
to see funding, then I think we have incentivized a lot of 
these people to be able to take some of that burden off the 
Federal Government. Right now, the processes don't necessarily 
allow, if somebody were to give money in, to be able to add 
more to their cost share or to put more money in from that 
particular area. You would like to think that those would 
compete better to be able to bring down the Federal bill and 
also make those things more viable.
    So I think as we work with the Committee, is it benefit-
cost ratio or remaining benefit-cost ratio, it goes back to how 
OMB scores these, and how can somehow we find a way of changing 
some of this to a degree relatively a metric-based process to 
put a little bit more common sense back into how we use the 
Federal dollar.
    Senator Carper. Earlier in my time, in fact, when I was 
Governor, the Federal Government put up a very large portion of 
these projects on our coast. The State share was raised, as you 
know, a few years ago. States now pay more than one-third of 
the cost of most of these projects, which is, I think, 
appropriate. I think it is appropriate.
    I have a question now, if I could, for both Mr. Fisher and 
General Semonite. In past budget cycles, my staff and I have 
worked to find out why Delaware projects were not included in 
the President's budget. A big one that was included was the 
dredging of the Delaware River Channel and Delaware Bay 
Channel, which is important for a number of our States, 
including New Jersey and PA. But on more than one occasion it 
appears that a given project was somehow mistakenly deleted or 
omitted during the Administration's budget develop and review 
process, including the Office of Management and Budget. We find 
this Administration black box to be a problem and a disservice 
to the American people. How do we create a more transparent and 
collaborative process to ensure that local and regional 
priorities do receive funding?
    As you know, while Corps projects have a large national 
value, many times they primarily impact the local economy or 
the local health and safety, and it seems this gets lost in the 
current budgeting process. Any ideas on how we might address 
this? Thank you.
    Mr. Fisher. Well, we certainly want to be working with all 
the relevant cost share partners and stakeholders on projects, 
be it in Delaware or anywhere.
    Senator Carper. I like that, Delaware or anywhere.
    [Laughter.]
    Mr. Fisher. But, no, this Administration, in the budget 
process, obviously, the Fiscal Year 2019 budget is being 
developed now, and, with limited resources, we want to make 
sure that we are targeting taxpayer funds where they are most 
needed, using risk-informed decisions to target that funding.
    Senator Carper. All right, thank you.
    General Semonite. Sir, I think the word you used, 
transparent, we are committed to continue to be up-front and 
open, and to be able to make sure we are having this dialog. 
So, you talk about what is a national project, what is a local 
project. Wilmington Harbor right now is a great example. They 
are looking to try to have a new access channel, so we assigned 
an MOA to try to figure out how can we continue to be able to 
coach them through how to make their project viable and to be 
able to compete. So that is where we want to make sure we are 
up-front. What are some of the trap lines? What are some of the 
lessons learned we have learned? And then at some given point 
the best thing we can do in the Corps is to give Mr. Fisher and 
you our recommendations of where the best use of that Federal 
dollar is.
    Now, if it doesn't meet the cut line, then that is 
something we have to go back and look at. But I think when it 
goes to that, whether it is harbor deepening or some of these 
other infrastructure projects, the value back to the Nation 
here is unbelievable, and we have to be able to champion some 
of those the best we can.
    Senator Carper. All right. Thanks so much.
    Senator Barrasso. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Secretary Fisher, following Senator Carper's lead, have you 
ever been to Oklahoma?
    Mr. Fisher. I have not, sir.
    Senator Inhofe. All right. Well, we may have to correct 
that, because we have some specific problems in Oklahoma that 
we have been working with the Corps, and I think we have sent 
letters to the Corps and OMB on the importance of prioritizing 
new start programs, some of our levee system that we have. 
Senator Boozman and I are very much concerned also about some 
of the problems we have with our best kept secret, and that is 
that my State of Oklahoma houses the most inland port in 
America, and we do have ships, barges coming up and down. But 
Senator Boozman and I are very much concerned about the 
condition of the locks and the dams, and we have been talking 
about that for a long period of time, and I would hope that we 
would be able to address this as we look at the Fiscal Year 
2019 budget, as well as the Fiscal Year 2018 work plan. So just 
keep that in mind, and any comments you want to make about that 
at a later time would be fine.
    In the WRDA bill in 2007, that was 10 years ago, I authored 
Section 3134, creating an innovative program for lakes within 
Oklahoma and elsewhere in America. This had been a contentious 
subject for a long time and we have had quotes from various 
people that have been in the Corps for a long period of time 
saying we are not in the recreational business, we are not 
going to be involved in that. However, they are involved. 
Anyway, just to make sure there is no question about that, I 
added language at that time, 10 years ago, and we actually, in 
the WIIN Act, more recently, removed the sunset provision to 
ensure that lake development innovation can be pursued by the 
Corps and used in other districts, too.
    While we have seen a couple of truly great developments, 
and we have in Oklahoma, we have, unfortunately, been told that 
Congress did not provide the Corps with any additional 
authorities needed to actually be innovative.
    Now, General Semonite, do you agree with that statement?
    General Semonite. Sir, you know----
    Senator Inhofe. It was made on behalf of the Corps. A quick 
answer is fine.
    General Semonite. We definitely want to be as innovative as 
we can. I am not convinced that there is a funding piece there, 
though, that I can necessarily put my arms around.
    Senator Inhofe. OK. Now, this is what I am going to ask you 
to do, because I can't find out what it is that we didn't do to 
give you the authority to do it, so I would like to maybe get a 
report from you or someone you can have address this subject, 
say, in the next week or so. Let us know what are the obstacles 
out there, because I can't find them.
    Second, the city of Bartlesville, Oklahoma currently has 
three water storage contracts at a particular lake and the most 
recent contract was secured at a rate of $67.38 per acre foot. 
Now, that was the quote that we got, and it has been activated, 
from the Corps of Engineers.
    Now, it is a growing city. They have problems over there 
and they have actually increased their use by 100 percent, and 
they really can't do much more. However, they just tried to get 
another quote from the Tulsa District Corps of Engineers, and 
that quote was $1,997 per acre foot. Now, it has gone up from 
$16 to $2,000 an acre foot, and obviously that is something 
that can't be provided.
    Now, my office initiated a dialog between the district and 
the city to find a compromise. It is my understanding that the 
district will be reaching out to the division and headquarters 
in order to do so. The Water Supply Act of 1958 directs the 
Corps to cooperate with States and local interests in 
developing water supplies in conjunction with Federal water 
projects.
    Now, the problem that we had with the district office is 
that this is out of our jurisdiction; we are going to have to 
go up the ladder. Well, today we are going up the ladder; that 
is you. And we would like to have your--are you familiar with 
this problem in that particular city?
    General Semonite. Sir, I am not familiar other than the 
last 24 hours. There was a GAO report that talked about Corps 
pricing. And I hate to say it, but the way that the rules were 
established several years ago, that pricing is different when 
it comes to State-to-State and city-to-city. Depends on how 
much did the project cost, when was it built, what were the 
authorized----
    Senator Inhofe. That is the GAO----
    General Semonite. That is the GAO report. So, the Tulsa 
District has provided a proposal to our Southwestern Division 
as of the last couple days. I will take a look at it. I will 
get back with you. I agree with you, you can't have that level 
of an increase, $67 to $1,900. Something sounds wrong there. 
Sounds to me like we have our hands tied with how we charge 
water supply rates based on the project's original construction 
cost, the year of the agreement, inflation, etcetera.
    Senator Inhofe. OK.
    General Semonite. So there is some formula that we are 
probably caught into, and we have to figure out how to get 
relief from that.
    Senator Inhofe. OK, my time has expired, but you know that 
GAO has stated in this report that they didn't get the ample 
information from the Corps to be able to make these 
determinations.
    General Semonite. Then I will solve that, sir.
    Senator Inhofe. All right. Very good.
    Thank you, Mr. Chairman.
    Senator Barrasso. Senator Booker.
    Senator Booker. Thank you, Mr. Chairman.
    Gentlemen, thank you both for your commitment to our 
Country. As you can hear from the passion of the folks, such 
important projects for our communities are often the difference 
between security and safety and destruction or worse in some 
senses.
    I want to focus in about the Rahway River Flood Control 
Project. This is an extremely high priority for tens of 
thousands of people in my constituents who live in the impacted 
area, which happens to be some of the most populated counties 
in my State. I want to reiterate that the storms in November 
2007, Hurricane Irene, 2011 damaged hundreds and hundreds of 
homes and cost businesses over $100 million due to the flood 
damage. I cannot overState the importance to my constituents 
and the risks that they face from flooding from the Rahway 
River and the importance of finding a way forward on this 
incredible project. I know you are familiar with it, probably 
pretty intimately, at least I hope so.
    There is so much concern at the end of the day that we will 
have studied this a lot, for over a decade, and little gets 
done. There is rising skepticism among some of my local 
leaders, cynicism that we are facing now. And I know that we 
can work together to overcome that skepticism, that cynicism, 
and you all have shown to me in the past your incredible 
creativity and engineering expertise, and I know that if we 
cooperate together with the local leaders that we can get this 
done and move forward.
    So my first question, Lieutenant General, is I understand 
that there are ongoing discussions with the Corps that may be 
willing to both extend the 3x3x3 Rules, which I know you are 
familiar with, and continue the elevation of the project by 
doing a detailed geotechnical study of the Orange River 
Reservoir Dam. Can you confirm that, sir?
    General Semonite. Senator, I can confirm that we are very 
involved with this. We do have the authority to extend the 
waiver, and we have extended a waiver to be able to make that 
study go longer. The other thing is we are very worried about 
the safety of that. This is a State dam, not a Federal dam, and 
some of the proposals that were asked for was to be able to do 
something that we don't think, in good engineering science, you 
can just go in and do. They were going to make some more outlet 
structures.
    We want to work with the State to find a solution, but the 
actual recommended solution from the State we don't think is 
engineeringly viable. So, this is where we want to work with 
the locals to be able to figure out how we can get a better 
solution, continue the study to be able to figure out what 
options are out there, and then the question is how can we 
continue to make sure that it does compete for funding, if in 
fact we see the need out there.
    But we are very concerned about the importance of that 
particular dam and we are committed to work with the State to 
try to find a solution, but it might not be the solution that 
the locals want. It is a very tight, constricted area and it is 
a very complicated dam. We know this one well, so we need to be 
able to really come up with a solution that is probably going 
to take a different engineering solution.
    Senator Booker. No, I appreciate that. I think the 
commitment of being willing to extend the 3x3x3, that is huge, 
and your willingness to be creative in working with the locals 
to come up with a solution that works on both sides, that kind 
of passion is important. That kind of commitment is important 
to me.
    General Semonite. Yes, Senator. And the cost of this is 
going to be out of the box. This is a very narrow area, so you 
are going to probably have to make the footprint bigger, so I 
am just saying it is not going to be an easy fix. But we are 
committed to find as much innovative solutions as we can, or at 
least be able to somehow put other mitigating effects in place 
to be able to bring down the risk to the local people that are 
there.
    Senator Booker. That, I appreciate. For Senator Menendez 
and I this is such a top priority because, as you know, New 
Jersey is the most densely populated State in terms of 
population, and this is one of our most densely populated areas 
in a densely populated State, so I am really grateful for that 
commitment; it means a lot to me.
    I want to, with my last minute here, really quick. The 
Federal flood risk management standard, you know that that has 
been changed, and after what we are seeing about a lot of the 
flooding and the challenges facing Texas and the Virgin Islands 
and Puerto Rico, the rule that was repealed would simply ensure 
that federally funded projects in a floodplain, such as roads, 
bridges, hospitals, infrastructure are built to withstand 
extreme weather and flooding that is often driven by some of 
the impacts we are seeing of climate change. So as the Federal 
Government is allocating tens of billions of dollars to help 
these communities to rebuild, I think it is essential that we 
make sound investments that will withstand the extreme weather.
    So, the simple question I have really quick is as the Army 
Corps continues to work to help communities rebuild from 
natural disasters, how important do you think it is to have 
strong flood risk management standards that take into account 
climate science and the sea level rise that is happening?
    General Semonite. Senator, I think it is very important. We 
are right in the middle of doing Puerto Rico and the Virgins 
right now, when you talk about resiliency there, so we have a 
lot of experience. But it does go back to we can't afford to 
continue to build products that are not going to be able to 
take care of what nature could throw at us. So, we have to be 
able to put that in accordance with the current authorities we 
have and to be able to continue to think of the deep fight. 
When we do plans and we do projects, we factor in how is that 
going to react when it comes to climate change or sea level 
rise.
    Senator Booker. Thank you very much, sir. Appreciate your 
comments.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Booker.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    And thank you, Mr. Fisher and General, for being here 
today.
    As I have mentioned many times before in this Committee, 
Nebraska operates a very unique system with our 23 natural 
resource districts, which are based on river basin boundaries 
rather than county lines. Our NRDs are governed by locally 
elected boards, enabling them to be effective in addressing 
local water concerns. Many times the NRDs are the local 
partners for a lot of the Corps-related projects.
    However, due to the Corps' inability to operate in a time-
efficient manner, these local partners are faced with 
astronomical costs and delayed projects. For example, one NRD 
has been working for the past 8 years to secure a 408 permit to 
begin construction of the Missouri River levees that protect 
Offutt Air Force Base, and currently this NRD has spent nearly 
$5 million to secure this permit. Even more concerning is that 
the NRD has worked with six different permit review teams from 
the Omaha District Corps office. After eight very painful years 
and millions of dollars spent, the original levee design has 
changed very little. Consequently, the permitting process has 
added very little safety or resiliency value to the project. 
The delay in acquiring the 408 permit has undoubtedly added 
millions of dollars to the construction costs of the project, 
but, more importantly, it has placed Offutt Air Force Base, its 
personnel, private citizens, private and public property, and 
billions of dollars in infrastructure at an unnecessary risk 
because the levees are not yet rehabilitated.
    General, I will ask you first. In your professional 
experience, is this delay acceptable? And will you commit to me 
today to expedite approval of the 408 permit for this project?
    General Semonite. Senator, I will, not just for that 
project. What we have done in the last year, and I said this in 
my opening statement, I hate to say it, but over the last 
hundreds of years we have migrated a lot of stuff to 
Washington, DC. that probably didn't need to come here. The 
real true technical experts, a lot of times, are the local 
districts and those divisions. So, a 408 process, it got to the 
point where it was so backlogged that this caused us to be able 
to look at ourselves and say how can we delegate in power this 
down to the generals and the colonels that we hire to do this 
job. So, since I have talked to you last, the 408 program has 
completely been delegated back to the division and the 
district; there will be no 408 approvals in Washington, DC.
    I don't know the exact process on the Offutt one, but I 
will find out, ma'am.
    Senator Fischer. But, sir, my issue here is with the 
district office, it is with the district office that has had 
six different permit review teams, that has spent 8 years in 
reviewing this project that has cost local taxpayers $5 
million. And we can't get this done for Offutt Air Force Base, 
which is home to the 55th Wing, which is home to STRATCOM, to 
build levees to protect this base. That is my issue, sir, it is 
with the local district.
    General Semonite. OK, so, ma'am, I have to find out. I 
don't know exactly this deal. Most of the time the districts do 
have to send it up the chain. It starts at the district, but it 
had to come to Corps Headquarters, so we have delegated it 
down. We know Offutt very well; we are building STRATCOM's 
headquarters. We are very committed to the Air Force contingent 
back at Offutt, so I will find out what the status of this 
permit is. And unless there is something that we are doing that 
is either not in the realm of engineering science, there should 
be no reason why we can't find a solution to that permit. I 
don't know the details, so I can't promise you we will approve 
it, but we will certainly get rapid resolution.
    It goes back to this whole streamlining thing. We should 
not have to take years to be able to resolve permits.
    Senator Fischer. And I would appreciate that, because it 
affects the base, it affects national security, it affects our 
local communities. So, I would appreciate hearing from you soon 
on that, sir. Thank you.
    Mr. Fisher, how do you believe the Administration can 
assure us that the Corps is operating effectively and 
efficiently so that projects can be budgeted for completion and 
finished to provide for the public health and safety of the 
communities and citizens that these projects were designed to 
protect?
    Mr. Fisher. Sure. Thank you. As has been discussed today by 
various members and myself, we recognize the construction 
backlog, and this Administration certainly wants to look at the 
innovative ways that the General has mentioned, contributed 
funds, other partnerships that, when we authorize something in 
a WRDA bill, that we can ultimately get to a completed project 
on those things.
    Senator Fischer. Well, thank you. And I would ask if you 
will commit to me that the Corps is going to review Section 408 
permitting process and determine if it is needed for flood 
control projects. And once the Corps has made this 
determination, will you provide an update to this Committee?
    Mr. Fisher. Yes, I can commit to that, working with the 
General on the 408 process and filing any report and 
communication that is needed.
    Senator Fischer. Thank you. I look forward to hearing from 
both of you.
    Thank you.
    Senator Barrasso. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Secretary Fisher, thank you for your testimony, 
particularly looking for innovative ways. We all recognize that 
the backlog and resources are a mismatch here, and we have to 
find ways to move forward on very important projects for our 
communities and for our economy.
    General Semonite, I appreciate very much your leadership in 
so many ways working with us. I will just mention what Senator 
Carper mentioned on beach renourishment. We talked about 
adapting to the realities of climate. The beach renourishments 
have saved millions and millions of dollars in property losses 
and has been our first offense against these storms. So, there 
are many reasons why we are pleased that we have been able to 
keep, actually we are a little ahead of schedule on the beach 
renourishments on the Atlantic coast of Delmarva, so thank you 
very much for your help in all of that.
    I want to talk about one of the highest priorities in 
Maryland. You are not going to be surprised that I am going to 
mention Mid Bay. But I want to go back to Poplar Island, which 
was innovative at the time. We had never had a project that 
would be a location for dredge material, but would also be an 
environmental restoration where we would have a win-win 
situation that would not only allow us to move forward with 
dredging that was desperately needed for the economics of the 
shipping lanes, but also give us a plus for the community, 
which helped their local economy as well. So, it was a win-win 
situation and Poplar Island has been very, very successful 
thanks to the courage of Congress to authorize this and the 
Corps to move forward with it.
    The challenge is that we now need a second location, and 
Mid Bay is the second location within the Chesapeake Bay for 
the location of dredge materials. It has been authorized by 
Congress in 2014, so we are on schedule.
    Just to followup on Senator Fischer's point about time, we 
need to be fully operational by 2029, and, in order to meet 
that date, we can't lose any of the dates moving forward. And 
we are concerned because it has not been budgeted for the first 
phase of preconstruction engineering, which is a matter of 
concern to all of us.
    So my question to you is will you work with this Committee 
to do whatever we need to do within the next WRDA authorization 
to make sure Mid Bay stays on schedule? We understand funding 
issues, but stays on schedule from the point of view of 
congressional authorization?
    General Semonite. Sir, I will talk a little bit about the 
project and I will let Mr. Fisher talk perhaps about the 
funding and the future commitments.
    First of all, you and I met here a couple months ago. We 
had to get a revalidation on that done. The dredge material 
management plan has been approved since you and I met. We do 
have now the report. I will sign by the 31st of January 
basically a revised report that goes back to Mr. Fisher that 
validates that particular thing.
    I think for all of the members in the Committee, I am 
concerned about dredge material management, and we, as we 
continue in this Nation to deepen harbors or to keep these 
harbors maintained, that material management is getting harder 
and harder to deal with. And if we don't think of innovative 
ways like Poplar Island and Mid Bay to be able to find 
environmentally sensitive ways of doing it, we are going to end 
up shutting down some of these harbors, and we can't afford 
that to happen. I was the guy that briefed Mid Bay back in 
2007, when we came in here to say that this was a good project.
    So, right now, what will happen is that report that I will 
sign will go to Mr. Fisher. It has to be cleared by OMB. If 
that happens and Mr. Fisher has the ability to be able to put 
PED money against it without any additional authority, he has 
that under his control. So, we think that from a Corps 
perspective we are on plan to continue with the process.
    And I will let Mr. Fisher talk about any of the funding 
commitments.
    Mr. Fisher. So, yes, we certainly want to work, when it 
gets to my desk, for there to be no surprises. I want to be 
able to work hand-in-hand with the General so that when it does 
come to our office we can expedite and help the project move 
forward and meet those 2029 and other milestones and deadlines 
you referenced.
    General Semonite. I think, Senator Cardin, the other thing 
is we are using Mid Bay and Poplar Island as ways around the 
whole Nation that we should be doing some of this. We are 
looking at an option right now in the Upper Mississippi River. 
We have some other options we are working out in California. 
This ability to be able to find an ecological restoration, but 
done on dredge material, is a smart way to go. We did the same 
thing in New York Harbor and Jamaica Bay, so it is the way. The 
Corps has to think out of the box to solve two problems with 
one.
    Senator Cardin. Well, General, I very much appreciate your 
leadership on these types of projects.
    Mr. Secretary, I just urge you that in the OMB-type 
bureaucracies, these types of programs are not well understood, 
and unless we have an advocate, it can be delayed, and when it 
is delayed it looks like it could become an earmark in Congress 
rather than an authorized program by Congress. We have those 
hurdles we have to overcome. So, all I am suggesting is to stay 
on schedule, and I appreciate your willingness to do everything 
we can to stay on schedule. It does require us to be innovative 
to make sure that the formal requirements have been met so that 
the funding can continue and we don't run into a process 
obstacle from OMB, so we need your help.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Cardin.
    Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Gentlemen, thank you for being here today.
    General Semonite, always good to see you. I am sure you 
know the topic that I am going to bring up this morning, the 
Cedar Rapids Flood Mitigation Project.
    Mr. Fisher, you and the General have both made references 
to value back to the Nation when it comes to the benefit-cost 
ratio. But when you talk about value back to the Nation, I 
think when you are referring to the BCR, you often, or what 
that brings to mind is the fact that those places with higher 
property values are worth much more to our Nation than the 
rural areas where property values are lower. And, since 2008, 
Cedar Rapids has experienced two major floods that have cost 
the city billions, billions of dollars in damages and lost 
economic activity.
    Despite being authorized in WRRDA 2014 and mentioned for 
prioritization in 2016, the project has not received any 
Federal funding due to the low benefit-cost ratio that results 
from the city's relatively low property values. The Cedar 
Rapids Flood Project is $600 million in total; the Federal cost 
share of that is only $73 million. So, the city is bearing the 
brunt of that project, while the Federal Government would have 
$73 million to contribute.
    Now, going back to the BCR, the metric, as currently 
calculated, is very problematic. The lives and livelihoods of 
the people in Cedar Rapids are just as important as those of 
individuals who reside in those coastal areas with higher 
property values. A solution is needed to ensure that all areas 
of the Country have a fair shot when competing for these 
important Corps projects.
    So, General Semonite, we have talked about this before. I 
am going to refer back to the December confirmation of R.D. 
James, the President's nominee to be Assistant Secretary of the 
Army for Civil Works. He committed to working with me and OMB 
to modify the BCR metrics in a timely manner, and I am going to 
quote his words: ``It's not right that there's people in this 
Country who will never ever get any type of water 
infrastructure project under the current BCR analysis.''
    Do you agree with Mr. James's assertion, and do you also 
agree that the metrics need to be changed?
    General Semonite. Ma'am, I personally do agree that the 
metrics need to be changed. We can't do one-size-fits-all or 
one-metric-fits-all. Your specific area is one where the local 
people out there saved lives because they were very, very 
aggressive in getting that flood fighting done, and we were 
lucky, to a degree, that somebody didn't get hurt out there. 
But I think we have to go back in and take a look at this. I am 
not convinced, though, that under the current metric we are 
going to see the light of day on this one. So, this is where we 
have to do something different, either change the metric or go 
back and somehow reformulate the project to be able to figure 
out how can we get the cost down and maybe bring the risk down. 
I had a meeting with my guys yesterday to say we have to be 
able to figure out how to solve this somehow. Just plugging 
through and beating our head against the wall on this one is 
not going to make progress, so we either have to change the 
metric or go back in and actually say is there some way that we 
can redesign it to come into a benefit-cost ratio that is in 
line with current OMB metrics.
    Senator Ernst. I appreciate that, and I will hold you to 
that because we do have to make progress on this. We have been 
through a number of flood events there and we will probably 
have another flood event before we get this solved.
    In Fiscal Year 2017, five projects received funding under 
the human safety exception, five, human safety exception, which 
gives the Corps discretion to fund projects with low BCRs if it 
deems there is a significant risk to human safety. Four of the 
five projects were in California. Four of five. And in a 
December 2016 letter to me, the Corps indicated that the 
decisions are determined on a case-by-case basis.
    Can you shed some light on this process, because, as we 
have discussed in this Committee before, there does seem to be 
a black hole of decisionmaking? Can you talk to me about the 
process and how those decisions are arrived?
    General Semonite. So, ma'am, I am not exactly an expert on 
this, but I did talk to Mr. Fisher yesterday. I think we both 
have to take a look at this process and go back, especially on 
that particular project, is there the ability to be able to 
apply this human exemption back on that particular project and 
revisit that decision, if nothing else, based on some of the 
other ones we have learned, and based on the fact that I don't 
necessarily see this thing happening the normal way. So, unless 
we are innovative in thinking what other tool in our kit bag 
can we use to get it authorized, then I don't see it happening, 
so this is where I think we both have to take a hard look at 
it.
    You and I have talked several times on this. I would love 
to come back and say here is the realm of what, if anything, 
the Committee needs to do to have this one see the light of 
day.
    Senator Ernst. We will have you back, sir. You are welcome 
in my office any time, and I look forward to having those 
discussions.
    General Semonite. Thanks, ma'am.
    Senator Ernst. Thank you very much.
    Senator Barrasso. Thank you, Senator Ernst.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Gentlemen, thank you very much for being here. We look 
forward to working with you as we do our next WRDA bill. And 
although this is not always a bipartisan Committee in the area 
of interest to you, it is a bipartisan Committee, and I hope 
you take advantage of that fact.
    One of the predicaments that coastal States like mine face 
is the sea level rising along our shores. NOAA has recently 
increased its predictions for global sea level rise and, in 
certain areas, particularly in my State, because of the way the 
ocean flows and works, that actually gets amplified a little 
bit further.
    Let me ask you first if the Army Corps has any quarrel or 
dispute with those NOAA sea level rise projections.
    General Semonite. Sir, I am not sure that I am smart enough 
to know on how they apply to Rhode Island right now. I don't 
think, fundamentally, we have any----
    Senator Whitehouse. Well, we will take care of that for 
you. We have very good people working on it.
    General Semonite. And, sir, I will ask the New England 
District as well so that we can take a look. I know you are 
specifically concerned about----
    Senator Whitehouse. Do you have any quarrel or dispute with 
the NOAA general sea level rise findings that they have 
proposed?
    General Semonite. No, sir.
    Senator Whitehouse. So, you will be taking that information 
into account in your planning of coastal projects?
    General Semonite. We take that, along with any other 
technical information that is out there, sir. Our expectation 
is to make sure we are using the best science available.
    Senator Whitehouse. And particularly where you are dealing 
with long-lived projects, it is important, is it not, to 
understand the conditions that those projects will be facing 
all the way through their useful life, and not just at the 
point of completion of the construction?
    General Semonite. Fox Point is a great example of that, 
sir.
    Senator Whitehouse. Yes. We are probably going to have to 
rebuild all that at some point fairly soon, and we have people 
in Rhode Island starting to look at how we wall off the city of 
Providence from much heightened storms.
    We have an additional problem, which is that the FEMA 
projections for coastal flooding have, over and over, been 
proved very badly wrong. In Houston and in Florida they just 
had some pretty harsh experience of what the flooding actually 
looked like compared to what FEMA maps had predicted. In Rhode 
Island we have very good work that has been done at the local 
level looking into how FEMA got its maps done with huge 
anomalies like multi-foot discrepancies on either side of one 
of the transects that gets done, which is obviously impossible 
in nature, and yet was obviously satisfying to the contractors 
who did this work for FEMA.
    So, I think we have two problems. One, as Members of 
Congress, we need to make sure that FEMA's mapping gets up to 
speed and that communities are not being asked to rely on false 
information and bad mapping estimates. But the second thing is 
we have you to work with. And to the extent that you, in your 
projections, are relying on those same FEMA maps, and not 
trying to improve or supplement them, your work faces the same 
problem that we face.
    How are you addressing this problem of FEMA's erroneous 
coastal flood mapping?
    General Semonite. Sir, I probably don't have a good answer 
for that on the fact that I don't think we lean just on FEMA. I 
think we look at the rest of that science out there. NOAA is 
another very, very reliable source. I don't think we are 100 
percent reliable on FEMA. We take that information and 
obviously there are going to be different interpretations of 
it, but if you need to, I will certainly come back and give you 
a better answer specifically with Rhode Island. But right now I 
think when it goes back to you have two things you addressed. 
One is future projects we have to look at, how do we make sure 
we wrap sea level rise and climate change into that; and then 
the other one existing infrastructure. That barrier is a 1958 
barrier, so a lot has changed in the last 50 years. How do we 
make sure----
    Senator Whitehouse. What used to be adequate is not 
adequate.
    General Semonite. And then is there a modification we can 
make? Do we need to figure out how to study it? But you are 
right on the point. We have to be able to figure the 
requirement and the risk before we can start putting an 
engineering solution in.
    Senator Whitehouse. I am down to 30 seconds, so let me ask 
my last question, which is that in your Fiscal Year 2018 
budget, the Army Corps of Engineers designates $1.32 billion 
for what the Army Corps describes as inland projects. And the 
Fiscal Year 2018 budget defines $46 million in proposed 
expenditure for what it defines as coastal projects. That is a 
30:1 ratio favoring inland projects over coastal projects. 
Should that be the case? And particularly should that be the 
case in the light of the dramatic changes that coastal States 
are seeing?
    Mr. Fisher. Yes, Senator, I will take that question.
    Senator Whitehouse. Because we are on the losing end of 
30:1 in Rhode Island.
    Mr. Fisher. Right. I understand that. I appreciate the 
concern. The budget amount, Fiscal Year 2018 budget amount is 
appropriate given the President's fiscal priorities and the 
Corps of Engineers' Civil Works responsibilities, and the need 
to reduce the Federal deficit, as well. But I appreciate the 
concern. I will certainly look into that discrepancy between 
inland versus coastal and look forward to working with you and 
this Committee further on that and what the rationale behind 
that might be.
    Senator Whitehouse. Thank you. Thirty to 1 seems like a 
lot, particularly given what is happening along our coasts. 
Thank you, sir.
    Senator Barrasso. Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.
    Secretary Fisher, thank you. We are hoping before long you 
will only have one hat to wear, because it is difficult to wear 
two, but you are doing a good job of it. But I know that you 
are in the policy area; I know what your job is, to approve 
things. I don't know if you have been to Alabama or not, but I 
know you are aware of our problems down there in Mobile and 
what we are trying to do, and that is what counts. But I know 
the General has; he has spent a lot of time in the Mobile area 
and he knows, so I want to address some of my questions to him.
    General, we have been through this before and I have talked 
with you about this, but bring us up to date on your view of 
where we are going, where we are as far as deepening the Port 
of Mobile from 45 feet, say, to 50 feet, and also widening it, 
because a lot of us believe that is a game-changer down there.
    General Semonite. Senator, I think you are the one that 
said your top 10 priorities are Mobile Harbor.
    Senator Shelby. No. 1.
    General Semonite. Yes, sir. So, we certainly understand 
that. There is a lot of potential in Mobile Harbor, as there 
are in a lot of these other coastal ports that continue to help 
the Nation's economy. Right now we are right in the middle of a 
GRR, a re-evaluation report. As you and I have talked, I would 
love to be able to get that done earlier. Our current estimate 
is to have that done by November 19, which will then set that 
up for Mr. Fisher to be able to approve PED money, which is 
that design, which means that theoretically you could continue 
to see a lot of progress going.
    I would love to try to push that to the left. I will talk 
to the district commander and see what we can do to accelerate 
that. On the other hand, because we want to make sure we have a 
good project, I would rather get it done right and have all of 
the right stuff, than try to do it too fast.
    Senator Shelby. We want you to do it right.
    General Semonite. So, we are committed to meet that 
November 19 date. If there is ever a time where I think we can 
cheat that to the left and do it the right way, we will 
certainly do that.
    Senator Shelby. In your judgment, what will deepening a 
port from 45 feet to 50 feet do for the port itself, as far 
as----
    General Semonite. Well, one of the things is that 
businesses are going to go where they are going to be able to 
get the best return on value and they are going to make the 
most money, so they have to come into a port these days and be 
what we call light-loaded. In other words, if they can't use 
the full 100 percent optimization of that particular ship, then 
that means that port is less viable. They are going to go 
somewhere else. And we are deepening a lot of ports certainly 
in the Gulf and in the East Coast. So that means that at some 
point you are going to find that businesses would be more 
likely to come to Mobile if they can get that extra 5 feet of 
depth.
    Now, I think the other part of that is that we also have to 
make sure that our commitment back to protecting the 
environment is done right, and Mobile Harbor, sir, you need to 
know, is one of the case studies of the right way to do that. 
We are using that dredge material management and we are taking 
that to either put in to be able to recreate wetlands on the 
east side of the bay or even to put that back on one of the----
    Senator Shelby. In the Dauphin Island area.
    General Semonite. The Dauphin Island, as well. And there 
are some differing opinions as to the deepening of the harbor 
with respect to perhaps erosion on Dauphin Harbor. We aren't 
necessarily in agreement with that particular opinion. We think 
you can effectively deepen Mobile Harbor without causing undue 
environmental damage.
    Senator Shelby. Well, we appreciate your work there, and 
also Secretary Fisher's. I am going to continue to work with 
you because, as you said, this is my No. 1 priority, and I 
believe it is the No. 1 priority for the region there. Thank 
you.
    General Semonite. Thank you, Senator.
    Senator Barrasso. Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman.
    Mr. Fisher, General Semonite, good to be with you today. I 
just have a couple questions following up on some of the issues 
Senator Cardin raised.
    General Semonite, you have been in a number of meetings on 
that issue with respect to the Mid Chesapeake Bay project, 
which is essential for creating an ecosystem with the dredge 
material from the channel to keep the Port of Baltimore 
competitive. And my understanding is that both of you said that 
you would get the predesign funding ready so that we could also 
get to the construction funding within the current 
authorization window, is that correct?
    Mr. Fisher. I don't believe we committed to the PED 
funding; it was certainly mentioned and we will certainly take 
a look at it as that moves from General Semonite's office to 
mine, absolutely.
    General Semonite. Senator, just a quick update. The 
material management plan has been done since we talked last. 
Right now, I will sign a validation of that particular project 
by the 31st of January and give it to Mr. Fisher. It does have 
to clear OMB. Senator Cardin and I just talked about that, but 
the bottom line is, once that clears, then it is the 
Secretary's decision to go ahead and put PED. But we don't need 
any additional authority so we can start right into the 
planning and design.
    Senator Van Hollen. So you can move forward with that 
aspect of it before you get the authorization.
    General Semonite. It does have to clear OMB, as I 
understand it.
    Senator Van Hollen. I just want to make sure I understand 
the timeline and which budget submission we are talking about 
here. So, this ultimately has to be in the President's budget 
submission, is that correct?
    Mr. Fisher. Yes, the PED funding would need to be in that 
submission. And like the General mentioned, I will certainly 
commit to working with OMB so that they are aware of this and 
they are getting everything they need from the Corps and my 
office as well.
    Senator Van Hollen. OK. Have you had any conversations with 
OMB about this project? Either of you gentlemen.
    Mr. Fisher. To date, no, I have not.
    General Semonite. I have not, sir, not on that one.
    Senator Van Hollen. OK. If I could just ask a broader 
question with respect to the Harbor Maintenance Trust Fund. I 
don't know what input, if any, either of you have on those 
issues. Is that something you are very involved with, the 
expenditure of those funds?
    Mr. Fisher. Yes. We budget for those, yes.
    Senator Van Hollen. So my question is, given the current 
backlog, I believe it is about $56 billion in backlog in the 
Harbor Maintenance Fund and $3.24 billion in the Operation and 
Maintenance Fund, the $56 billion being the shortfall in the 
construction and $3.2 billion in the Operation and Maintenance 
Fund. Do you believe that the Congress should direct more of 
the funds from that account into harbor maintenance at this 
point in time in order to make sure that we have the dredging 
that we need to make sure our ports are competitive?
    Mr. Fisher. I would say that while additional funds can 
certainly be expended for critical dredging and maintenance of 
coastal harbors and channels, the current budget, the Fiscal 
Year 2018 budget proposed by the President is the appropriate 
amount given the President's fiscal priorities and the 
responsibilities of the Corps' Civil Works program. But I do 
look forward to working further with you and this Committee to 
find innovative ways to use that trust fund and get the most 
out of it.
    Senator Van Hollen. Well, do you agree with the assessment 
that there is a $56 billion backlog in construction projects in 
harbor maintenance?
    Mr. Fisher. I don't know the number, sir, but I am very 
aware that there is a backlog.
    Senator Van Hollen. And the purpose of these fees that go 
into a fund are for harbor maintenance, isn't that the case?
    Mr. Fisher. Yes.
    Senator Van Hollen. So how would you justify diverting 
funds that were raised for that specific purpose from people 
who were essentially paying a user fee, how can you justify 
diverting those funds for other purposes within the budget?
    Mr. Fisher. Sir, I don't believe we would try to justify 
that. We want to be able to use the funds for that purpose 
which they were intended.
    Senator Van Hollen. So you would support an effort to make 
sure that more of the funds that are raised into the Harbor 
Maintenance Fund go for that purpose, is that correct?
    Mr. Fisher. Yes.
    Senator Van Hollen. OK. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman. I just want to 
take a second to echo what Senator Inhofe said earlier about 
the importance of the McClellan-Kerr Waterway for not only the 
State of Arkansas and the State of Oklahoma, but the entire 
region and the whole system put together.
    Lieutenant General Semonite, certainly, I agree with you, I 
think all of us agree with you that we simply don't have enough 
appropriations to properly address America's crumbling water 
infrastructure, and infrastructure in general. Because of our 
debt and deficit, though, we are certainly in need of 
innovative funding mechanisms. One of the tools that the Corps 
has at its disposal is the WIFIA program that was established 
in WRRDA 2014. While the USEPA, Environmental Protection 
Agency, has published guidance, received appropriations, and 
issued a request for projects to begin implementing the EPA 
WIFIA program, the Corps WIFIA program has no published 
guidance or Federal funding. The final WIFIA authorization of 
appropriations for the Corps and the EPA is 2019. The WIFIA 
program has great leveraging power to make taxpayer money go 
further, while also incentivizing the private sector to get 
involved in public-private partnerships, the P3s that we are 
hearing so much about right now.
    Can you tell me does the Corps not view the WIFIA program 
as a viable option to address infrastructure? Also, what steps 
has the Corps taking to get the WIFIA program off the ground, 
if any?
    I will take either one of you. Mr. Secretary?
    Mr. Fisher. This is probably going to be one of these 
questions I have to get back to you on. I need to get a fuller 
brief. I know that the Corps has a lot of federally owned and 
operated projects. When you take a look at how WIFIA applies in 
that instance, as well as what you reference, P3s, we need to 
determine what actions are going to be required to foster that 
public-private partnership investment as well. So, if I can, I 
will have to come back to you on that.
    Senator Boozman. It didn't sound like it is a priority.
    General Semonite. Senator, one of the things that we are 
doing, and it goes both for P3 and WIFIA, is that we have to 
make sure we have that policy. The House did pass guidance that 
the Corps should slow down on any P3s, actually banned us from 
doing P3s, other than Fargo-Moorhead, which is a project in 
North Dakota, until we establish policy. And we certainly 
understand we have to have some degree of policy. We are, right 
now, drafting that WIFIA policy inside of our headquarters. We 
will get with the Secretary to work through that. I do think we 
have to continue to work down this road because, as you said, 
we have to find innovative ways of doing that.
    And I think this is something that both the Secretary and I 
could come back to give you, to the Committee or you 
personally, an update of where we are going; what are the 
milestones, what do we hope to achieve, when are we going to 
get it done.
    Senator Boozman. No, I understand. The House also, in 2014, 
passed the WIFIA program, and earlier you talked about on time, 
on budget; and there is a huge lag here. And that is one of the 
problems that we have with the bureaucracy, is this kind of 
thing.
    In WRRDA 2014 and the Act of 2016, Congress attempted to 
advance projects by allowing non-Federal entities to fund 
projects by expanding reimbursement opportunities and credit. 
In December 2016, the GAO reported that non-Federal sponsors 
are leading $4 billion in Corps-related studies and projects. 
From that $4 billion, the Federal Government has reimbursed 
$400 million to cover some of the Federal costs related to 
those projects.
    Lieutenant General Semonite, what can non-Federal entities 
expect from the Federal Government regarding credit and 
reimbursement opportunities? Also, what else can the Federal 
Government do to incentivize non-Federal entities to get 
involved in more projects?
    General Semonite. So, I will answer it in two ways. One is 
that we do have a relatively robust program for non-Federal 
sponsors to be able to put money in, and we call those either 
contributed funds or accelerated funds or advanced funds, and 
there are different rules on each type of those three. But that 
way, if a stakeholder wants to go faster, they can put in their 
money. And a lot of times they will advance those moneys up 
front so we can start that project, get it going, and then give 
them credit down the road. And that program works pretty well 
and we have streamlined our ability to receive funds, and you 
have given us some extra flexibility to be able to do that.
    I think the other thing we have to look at is it goes back 
to this point of if a stakeholder is ready to put more funds 
in, then, like I said earlier, that should make that benefit-
cost ratio revised, because the actual cost to the Federal 
Government is now much less. And if you have a project that is 
close, if it is 2 to 2.3 or something and somewhere there is 
that extra money put in, that would advise that mass, so now 
you are going to be able to get that across an OMB metric. And 
although I think the metric ought to be changed, if in fact it 
is not, at least it shows if a stakeholder puts skin in the 
game and puts money and contributions in, now, then, that will 
incentivize the process and be able to get those projects 
approved.
    So, I think this is goes back to this benefit-cost ratio 
versus revised benefit-cost ratio, and you and I have talked 
about this in the past, sir; how do we continue to work with 
OMB to find some innovative ways to be able to really bring 
down the burden on the Federal Government.
    Senator Boozman. Thank you very much, and we do appreciate 
your hard work.
    Senator Barrasso. Thank you, Senator Boozman.
    Senator Capito.
    Senator Capito. Thank you all for your testimony.
    Thank you, Mr. Chairman.
    I was going to ask you about the WIFIA program, but my 
colleague from Arkansas did a good job in talking about that, 
and hopefully we will get some further information. Certainly, 
as we look at an infrastructure package coming in from the 
President, there has been a lot of talk about modeling things 
after TIFIA, which is what WIFIA was modeled after. But if, for 
some reason, there are obstacles there, I think we need to make 
sure that we know exactly what they are and how to avoid those 
in terms of a vibrant infrastructure package.
    I am from West Virginia. We have the Mon River locks and 
the Ohio River locks, obviously, I would suppose, some of the 
oldest locks and dams in the Country, particularly on the 
commercial side. And we have seen over the years how one large 
project like Olmsted can crowd out all of the other projects. 
So I guess, just briefly, what is the status of that project? 
And, in the future, do you see or how do we prevent a high 
profile, say, port project crowding out all of the other 
projects, because there is so much need, and how do you 
prioritize that as you are moving through to avoid this kind of 
situation in the future?
    General Semonite. So, the Olmsted project is going very 
well. We are on plan to be able to continue to bring that to 
closure here in the next year. I think that that will allow 
some additional investment in other construction accounts in 
the years out there.
    One of the challenges, and maybe one of the successes, and 
the Committee has done quite well at it, if in fact there is a 
special, I will call it a bin of projects, how do you somehow, 
as opposed to having everything rack and stack, ma'am, against 
the overall bin, how do you carve out some?
    A good example is refuge harbors. Right now there is a 
certain bin that we put a certain amount of money into on small 
harbors that would never compete well against a large harbor. 
So, if there are some special categories that we could then 
carve out to be able to make sure they do compete within that 
sub-bin, I think that is a pretty good model to be able to say 
big projects are going to compete on their own. But where we 
really do have equities out in some of these niche capabilities 
that just can't compete because of the benefit-cost ratio, we 
ought to look at that. And it really goes back to this idea you 
have given us a lot of tools. Have we used those to the best of 
our advantage to figure out every single way we can try to get 
some of these projects approved? It doesn't mean more money, 
necessarily, but it means that they will be able to compete 
better against the existing funds that are available.
    Senator Capito. I would say, too, for the areas most 
affected of the smaller projects, the impacts can be as great, 
maybe not economic impacts as measurable, but ability to grow, 
live, and prosper in a certain region certainly are critical to 
having those infrastructure. And a lot of times you can get a 
bigger bang for your buck, too, because they are less 
expensive.
    General Semonite. Sure.
    Senator Capito. You know, I think one thing that was a 
great thing that we did in the last WRDA bill, I think it was 
the WRDA bill, when the revenue from diesel fuel went up and 
Congress increased that tax from 20 cents a gallon to 29 cents 
a gallon. Now, I can tell you I have been in Congress for 
probably longer than some other people would want me to be, but 
I can count on one hand how many people have come in my office 
and said we will help pay for this. You know, they weren't 
looking for the Federal Government to actually be the be-all 
and the end-all, but we will take this is so important to us, 
it is such an economic driver for us that raising the tax on 
something we use every day as a critical part of our expenses 
is something that we need to do and we are willing to do.
    So, I think if we can look for other ways to do that, you 
know, in general, in the infrastructure package I think would 
probably be a good idea.
    Streamlining of the regulatory process, do you have a 
dashboard now where you have all your different agencies 
weighing in, or would that concept be good for you as we move 
forward in some of these larger projects, where the 
stakeholders can find out exactly where they are, when they 
are, and how they expect to get where they want to be, whether 
it is you, EPA, Fish and Wildlife, Forest Service? You can 
imagine how confusing it is for all of the different agencies 
to figure out, particularly on the NEPA review issue.
    General Semonite. So, Senator, I did talk in the beginning. 
We are beginning to streamlining these, and a lot of that does 
go back to delegating that authority down to a level that has 
the capacity and the competency to be able to do that, so we 
are seeing progress there.
    We have a series of different dashboards. I would like to 
think that they are responsive back out to the public. But we 
are doing about 80,000 permits now, so you can come back 
onboard, see the status out there. Sometimes, though, if it is 
not responsive enough, we want to be able to have them call 
into the district to find out what is out there. Sometimes the 
applicant doesn't put in all the right things, so they might 
think they have supplied everything; we might still be waiting 
on something; and that is where the dialog has to go back.
    I think we have to continue to look at more innovative ways 
from an IT perspective of how can we be more transparent and be 
able to be more responsive back out there. So, I am not sure 
exactly, if in fact we are meeting the need. If not, I will 
certainly try to change what we have to do. But we are 
committed to trying to give responsive feedback to permit 
applicants so they know what the status of their permits are.
    Senator Capito. Well, just anecdotally, because I have you 
in front of me, I would like to say that the Huntington Corps 
and the Pittsburgh Corps are great to work with; they have been 
very responsive with our office, and I would just like to give 
them a pat on the back. Thank you.
    General Semonite. Thanks, ma'am.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    General Semonite, I am concerned about the progress of the 
Hudson-Raritan Estuary Ecosystem Restoration Study that is 
currently being undertaken by the Army Corps. This 
comprehensive study will result in environmental restoration 
projects across the New York-New Jersey region. Section 1322 of 
the 2006 Water Infrastructure Improvements for the Nation Act 
directed the Army Corps to expedite completion of this study. 
However, it continues to be delayed due to bureaucratic hurdles 
and restrictive Army Corps policies that make it difficult to 
complete large, complex studies such as this.
    Will the Army Corps prioritize completing this study as 
soon as possible?
    General Semonite. Senator, we will. I would like to come 
and probably have our guys lay that out for you and be able to 
make sure we give you more detail on exactly what some of the 
challenges are there, but we are committed to that study. It is 
an important area. There is risk there, without a doubt, and we 
do want to continue to be as aggressive as we can in bringing 
this study to closure.
    Senator Gillibrand. Concerns have been raised to my office 
that completing the Hudson-Raritan Feasibility Study has been 
made difficult by the Army Corps' 3x3x3 Rule, which requires 
feasibility studies to be completed in 3 years, cost up to $3 
million, and involve all three levels of Corps review 
throughout the study process.
    What flexibility does the Army Corps have to adapt study 
requirements for large, complete projects, like the Hudson-
Raritan study, that cannot conform to the restrictions of the 
3x3x3 Rule because of their size and scope?
    General Semonite. So, Senator, like all rules, we put that 
in effect to try to be aggressive, to try to be able to bring 
down our timelines, find out ways of being more economical 
studies and doing them quicker. Unfortunately, some of these 
large studies do have to take more than $3 million and more 
than 3 years, so we have a process. The 2-star general sitting 
behind me, he is the guy that approves that authority to be 
able to waive that, so we certainly have the authority to have 
some of these more complicated studies like that go longer, and 
we certainly have no problem doing that because we want to do 
that science right and get it done appropriately.
    Senator Gillibrand. So, do you believe you have the 
flexibility you need to ensure that these types of studies 
which have Federal funding and a non-Federal partner are not 
unnecessarily delayed due to arbitrary bureaucratic 
constraints?
    General Semonite. I certainly think I have all that 
flexibility. If I find out later that something is wrong on 
this particular one, I will get back with you, ma'am, but right 
now I don't think we have our hands tied at all.
    Senator Gillibrand. Great.
    I am also troubled by the pace of recovery for Puerto Rico 
and, in particular, the length of time it has taken to restore 
power. In particular, I have heard horror stories about the 
situation on the Island of Vieques and the dire situation that 
exists there due to, in large part, the lack of electricity.
    What is the current status of the Army Corps' work 
overseeing the restoration of the power grid on the Island of 
Vieques?
    General Semonite. So, Senator, I have taken five trips to 
Puerto Rico in the last 7 weeks. I know Puerto Rico very, very 
well. We have about 2,000 people down there working through 
Christmas, working through the holidays. Today we have about 80 
percent of the load restored. That is not necessarily people; 
that is the load on how much has historically been out there.
    Just Puerto Rico alone, a very, very quick data point, 
62,000 power poles; 3,100 miles of cable. That all had to be 
brought in. The problem was this was after Texas got hit, 
Florida got hit, and the Virgin Islands got hit. So, the demand 
on the electrical system to be able to provide that material, 
it took us a while to do that.
    Right now, our goal is to get 50 percent by the end of 
November. We met that goal. Seventy-five percent by the end of 
January. We are at 80 percent today and it is only the 17th of 
January. I committed to the Governor to try to get 95 percent 
of that power up by the end of February, but, Senator, 
unfortunately, there are some parts, on top of those mountains, 
where there are 5 or 10 houses way down at the top of the 
ridgeline. The electricity for those 5 houses on the side of a 
cliff. So, it could be as late as May for the last 5 percent. I 
want to make sure I clarify because I don't want to over-
promise. I would much rather deliver this as fast as we could. 
But we are all in to fixing the grid in Puerto Rico. This is 
normally not a Corps of Engineers mission, but we are honored 
to step up to be able to try to get it, and we are 100 percent 
committed to get electricity on as fast as possible.
    I tell the Governor every single day you have a right to be 
frustrated down there because everybody deserves power, but it 
is not because the Corps of Engineers is not going as fast as 
we possibly can.
    Senator Gillibrand. Have you been able to build in any 
resiliency, or are you just doing patchwork?
    General Semonite. So, the way that the Stafford Act is 
there is response and then there is recovery, so basically we 
are going back in with all new materials and we are putting it 
to code and to standard. I hate to say it, some of the lines we 
are replacing actually had two or three storms' worth of 
damage, but they were just leaning over, so all the trees fell 
on top of the lines, all the lines come out. So now we are 
putting all of it back up. We, by the Stafford Act, are putting 
it back up to the original standard unless we have FEMA's 
flexibility in some areas to be able to make it more resilient. 
But that is something where the guidance we have gotten from 
Mr. Long is to be able to basically rebuild the existing 
standard, but with new equipment to code. That alone will give 
us more resiliency.
    Senator Gillibrand. We have been trying to amend those 
rules so that, actually, you can build in resiliency.
    General Semonite. Yes, ma'am.
    Senator Gillibrand. Because it is kind of absurd to say, 
oh, well, it was built in 1970; we are just going to put it 
back to 1970 standards. Like that is a waste of money. So, I 
urge you to ask Congress for the ability to, when you do do 
these projects, build them to state-of-the-art with resiliency 
enhanced so we are not there after the next storm. We have a 
bipartisan bill to do that. We are hoping to be able to get 
votes on that bill, but that is the kind of work I would like 
you to aspire to do in the future.
    General Semonite. Yes, Senator. We have testified several 
times and we certainly are more than willing to do that if we 
have the flexibility. Good example, what kind of pole do you 
put in? If we can put in a stronger pole, but still underneath 
the authorities we have, we certainly want to do that.
    Senator Gillibrand. And you have not been able to do that 
for Puerto Rico?
    General Semonite. We have when it comes to materials. We 
have better materials in there. And, like I said, a lot of 
areas where they were built, it was never built to code. This 
is an antiquated system. I did the grid in Iraq in 2004. Parts 
of Puerto Rico were worse than what I saw in Iraq in 2004.
    Senator Gillibrand. Thank you, sir.
    Thank you.
    Senator Barrasso. Thank you, Senator Gillibrand.
    Senator Wicker.
    Senator Wicker. Mr. Chairman, let me just note for the 
record how much I appreciate Senator Gillibrand mentioning the 
Island of Vieques and the situation in Puerto Rico.
    And, General, I don't have a question about that, but those 
listening should understand that there is bipartisan support 
for doing as much as we can as quickly as possible to alleviate 
the suffering there.
    You know, this is about America's water infrastructure 
needs and challenges, and, you know, I don't know how well it 
is understood among the public, until we have a disaster, how 
important our Nation's infrastructure is and how vital the 
Corps of Engineers is until you have an event, and then we 
wonder why it hasn't all been taken care of beforehand. And I 
particularly would direct our witnesses' attention to the 
Mississippi River Tributaries Program, which has been around 
since 1928 and is still not completed after all these years.
    If you read or go back and re-read the book ``Rising Tide'' 
by John Barry and understand the absolute devastation that took 
place to our Country, that rose all the way up to a president 
of the United States and a secretary of commerce and millions 
and millions of people, until you go back and remember what 
could happen if we didn't have the Corps there, if we didn't 
have programs like the MR&T project, we don't fully understand 
this.
    Some people out in the Country like to call this pork 
barrel or talk about projects as if they are somebody's pet 
project or pet program. This MR&T program and the other 
infrastructure that we have all around the Country is just 
vital to people's lives, to our ability to earn a living and to 
recover from those disasters that we know are coming.
    You know, I am told that there is a 54:1 benefit-to-cost 
ratio for what we have done so far in the Mississippi River and 
Tributaries Project. We have invested over $14 billion, a lot 
of money, but we have prevented over $800 billion in damages.
    Lieutenant General, those figures are pretty accurate, 
aren't they?
    General Semonite. Sir, you are exactly right. I mean, this 
is about 88 percent done. We have continued to put about $350 
million into this, but there is still more work to get done. 
And I have been down to that project several times and the 
investment of proactive up-front certainly pays dividends when 
it comes to a storm coming back through, the ability to 
alleviate risk.
    Senator Wicker. These are real benefits, real disasters, 
real damages that haven't happened to people because we are 
able to do this. And yet we have this annual fight; it doesn't 
matter if it is a Republican administration or a Democratic 
administration. In 2015, the administration requested $245 
million; the appropriators and the Congress ratifying upped 
that to $302 million. In 2016, the administration came in, and 
this was the Obama administration, $225 million requested; the 
Congress upped that to $345 million. 2017 request, $220 
million; that appropriation turned out to be raised from 220 to 
$368 million. And the request this year is $253 million. We 
will have to increase that. It makes us look like spendthrifts.
    I am not on the committee anymore, I was back in another 
day and another job I had, but it just seems to me that I am 
not even going to ask you, Mr. Fisher, to justify this, because 
I think it would be unfair to you. Let me just say that this 
investment that we have made, that the Lieutenant General spoke 
about, that has gotten us to the point of 88 percent and saved 
all these lives and all this heartache, is really money that we 
have appropriated over and above what administration after 
administration after administration has been requesting.
    I will just leave that statement out there. I will let you 
comment, if you would like.
    Also, let me just say we have to fix this Mat Sinking Unit 
problem, and it has to come out of O&M.
    General, if we do what we need to do on the Mat Sinking 
Unit, it is going to take quite a chunk out of O&M, is that 
correct?
    General Semonite. It is, Senator. About 4 months ago I was 
on that Mat Sinking Unit working one of those machines, you 
know, tying the mats together. That is an antiquated system. It 
looks like something that came off a farm back in 1952.
    Senator Wicker. And it keeps the levees from washing away.
    General Semonite. Yes, sir, it does. But, on the other 
hand, you can't just continue to keep putting Band-Aids on it. 
So, we have a long-term plan, a funding schedule. I mean, it is 
in the order of $20 million to $30 million a year, but we 
would, at least myself personally, would continue to recommend 
to the Committee to keep funding in that so we can continue to 
keep that critical--we have to replace this thing. So that is 
what that funding schedule does, is continue to get the new 
unit back up and running and getting it onboard. We are in the 
design right now, which is good. We have some money this year, 
we are doing a prototype, but we see great value in a 
replacement for the Mat Sinking Unit.
    Senator Wicker. Well, you know, Mr. Chairman, I have gone 
way over. It is not really a very sexy topic, but when the 
water is up and the soil starts churning on the other side of 
that levee. and you start worrying about the levee failing, it 
gets pretty serious to millions and millions of Americans.
    Thank you for your indulgence, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Wicker.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Welcome. Thank you both for your service.
    General, the Sagamore and the Bourne Bridges are the only 
two roads connecting Cape Cod to Massachusetts. I don't have to 
tell you that at all. But, regrettably, these two 80-year-old 
bridges, which are crucial evacuation routes since it is the 
only way off, are structurally deficient. The Corps of 
Engineers maintains the bridges and is currently conducting a 
study to evaluate whether they need to be replaced.
    General, as an agency charged with reducing risks from 
disaster, how does the Corps of Engineers rehabilitate bridges 
that serve an essential public safety and commercial function, 
and would it be helpful if Congress created an authority that 
dedicates Federal funding for the replacement or restoration of 
these types of assets and then allows the Corps to divest the 
bridges to be able to able and willing non-Federal partners?
    General Semonite. Senator, I strongly agree with you that 
we have to do something different on bridging. We have 897 
bridges. Some of these are small ones across like the 
intercoastal waterway. But those two you talked about, and I 
was on those 4 months ago, as well as about five gigantic 
bridges we have in Pennsylvania, are big, big bills. Right now, 
per bridge, each one of those, if we rehab it, it is going to 
be $300 million; if we replace it, it is going to be about $400 
million. So, you are talking about an $800 million deficit.
    Now, the question is does the Federal Government need to be 
able to keep bridges in our inventory. I would recommend that 
we have to go down this path of finding a way to divest those. 
It would be great if the State came in and took those over, but 
the State is probably going to say we will only do that once 
you bring them up to a given standard.
    So, we want to work with the Committee to try to find ways, 
and it goes back to critical infrastructure and water. If we 
can figure out how to somehow bring down some of the bills that 
we have for these old bridges, then we are able to use that 
same money, assuming Congress keeps appropriating that, into 
other areas that might be a better return investment back for 
the Nation.
    Senator Markey. And I agree with you, and that is why 
Federal money is so important; we have that leverage going into 
a negotiation on an issue like that.
    General Semonite. And early on I said what about innovative 
approaches. This goes back to where is a local or State 
interest to be able to step up to take some of these things 
over. We just have a lot of inventory in the Federal 
Government. I would love to see some of this divested back into 
locals that maybe can take care of it and budget for it better 
than we can.
    Senator Markey. Thank you, sir.
    I have always supported environmentally responsible 
shoreline protection projects where sand is pumped onto beaches 
to protect against storm surge and coastal erosion, but when 
the Town of Sandwich, Massachusetts attempted to use sand from 
the Federal Cape Cod Canal that otherwise would be dumped in 
the ocean to protect their community, Federal requirements 
became a major obstacle. The U.S. Army Corps required the 
homeowners to provide easement, ceding away their coastal 
property line forever, even though the sand from this 
beneficial use project would only remain on the beach for 5 
years. Ultimately, the town was unable to use Federal funding 
for this essential shoreline protection project, which, to me, 
makes no sense at all.
    So, General, should we explore opportunities to make the 
Corps project requirements more flexible for these beneficial 
use of dredge material projects? Shouldn't we find better ways 
to ensure that these requirements are not preventing the Corps 
from using quality sediment for beach nourishment and aquatic 
restoration?
    General Semonite. So, Senator, I am a big fan of 
considering dredge material as a resource as regional sediment 
management. There is a lot of places that we can put this type 
sand to do exactly what you are talking about. There is current 
policy, though, that if in fact we use beach renourishment, 
then at some given point there are local homeowners' 
association there and access back to that beach.
    I am not specifically aware of the project in Sandwich. I 
would like to think that somewhere we could have figured out a 
solution somewhere, but, if nothing else, we will certainly 
find out and I will talk to the New England District and figure 
out what happened and how can we somehow figure out, without 
perhaps challenging the policy that is a national policy, how 
could we have found a better way to use that sand. Taking it 
out to the ocean, sir, is a waste of a good resource.
    Senator Markey. It is a waste of a good resource, and 
saying you have to give up permanent in order to get something 
that only lasts for 5 years is something that ultimately, then, 
reach stalemate, so that is not good.
    Finally, if I may, for some communities in Massachusetts, 
Wellfleet, Plymouth, New Bedford, Essex, Gloucester, 
Newburyport, the waterways are filling up with so much sand 
that vessels cannot reliably and safely pass, which harms 
commerce, recreation, and safety. Many of these waterways are 
federally owned, and it is the U.S. Army Corps of Engineers' 
responsibility to dredge these waterways, and that is why I 
believe that we should use all of the resources in the Harbor 
Maintenance Trust Fund for these important dredging projects, 
instead of raiding that pot of vital funding for deficit 
reduction, as we are doing now. And I hope that we can address 
this issue in the upcoming water resources bill.
    Maybe, if you could, General, just give us a few comments 
on that issue in terms of the resources you need in order to 
get the job done in communities like Wellfleet and others that 
I just mentioned.
    General Semonite. Sir, I will just hit on the current 
dredging. We clearly have a lot more requirements right now 
than we have funds, so we do have to prioritize; and we have a 
relatively deliberate formula as to where can we dredge and 
where we can't. I will let Mr. Fisher address the Harbor 
Maintenance Trust Fund, but we definitely have requirements 
that exceed our capabilities, and that means in some areas we 
have not been able to dredge, and some of those rivers have 
almost gone into a caretaker status because we have not been 
able to do what we need to do to protect the Federal waterways.
    Mr. Fisher. Sir, I would just add I am very aware of the 
balance, the large balance in the Trust Fund, as you mentioned, 
and we certainly want to make sure that those fees that are 
collected are targeted to the improvements they were intended 
to be.
    Senator Markey. Because these communities are really under 
stress. And it is a nationwide issue, so the more that we can 
work on that project maybe in the infrastructure bill, I think 
the better off we would be for the economy of our Country, as 
well, for the growth that is possible, because you are dealing 
with these central issues.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Markey.
    Senator Carper.
    Senator Carper. Not every member of our Committee, in their 
comments and questions, have raised the issue of our failure to 
appropriate the dollars that are needed to enable the Army 
Corps of Engineers to do your job. It is not even close. It is 
not even close.
    I mentioned the estimates of the American Association of 
Port Authorities. The underfunding in port infrastructure alone 
cited by them, I guess last year, $65 billion in investment 
over the next 10 years. Actually, if we are interested in a 
nurturing environment, includes the work that we do in 
infrastructure on our rivers, ports, levees, so forth. Sixty-
five billion dollars over the next decade they say is needed.
    And our friends over at the American Society of Civil 
Engineers, their infrastructure report card, which just came 
out, tells an even more unsettling story; not $65 billion, but 
their report card estimated, I think, about $162 billion in 
investments that are needed in dams, levees, inland waterways, 
and so forth. A hundred and sixty-two billion.
    And what do we do in response to this? I think we have a 
budget for the Army Corps of Engineers that hovers just under 
$5 billion. And we are looking at these kinds of needs. We know 
that we need them. We know that if we invest money in these 
ways, it will actually grow our economy, strengthen our 
economy, make us safer and smarter. And we are considering a 
budget. I don't know if we are going to actually pass a real 
budget this week or another some kind of short-term funding 
resolution, but the Administration is asking for, I want to 
say, tens of billions of dollars more money for defense 
spending. The U.S. already spends more, Mr. Chairman, I am 
told, then the next 10 nations combined, and we are going to 
add to that. We are going to be spending more than the next 12 
nations combined.
    The President just signed legislation into law last month 
that reduces revenues for running the Government by $1.5 
trillion to $2 trillion over the next 10 years, and we sit all 
around here today bemoaning the fact that the Army Corps 
doesn't have the money they need, doesn't have the resources 
they need. Well, there is a good reason why not: we are not 
providing it. We are not providing it. In this case the 
Administration is not asking for it and we are not providing 
money. I think it is shameful. I think it is shameful.
    We ask you and the folks that work for you to do more than 
any humans could actually do. Maybe no one else feels a sense 
of shame on this Committee. I do. The old comic strip 
character, Pogo, we see the problem, and it is us. We are a big 
part of the problem.
    I want to come back to Puerto Rico. General Semonite, you 
and I have talked about Puerto Rico before. I appreciate what 
you said in response to Senator Gillibrand's question. We think 
of Puerto Rico as Puerto Rico. This is north, this is south, 
this is east, and this is west, and most of the generating 
capacity for electricity is in the south, as I recall. Most of 
the generating capacity is down here to the south. Not all of 
it, but a lot of it is diesel. They bring it up from Venezuela 
and places like that in the south. They spend, I think, and the 
General can correct me if I am wrong, 27 cents per kilowatt 
hour in our State, so we spend maybe a quarter of that. And yet 
somehow they are supposed to be able to compete economically.
    The question about rebuilding to code and that sort of 
thing, I was largely encouraged by what you said on that, but I 
think if you have most of the generating capacity for 
electricity down here in the south and most of the people live 
up here in the north, and in between you have mountains, and we 
are spending a fair amount of money trying to get the 
electricity from the south to the north, why don't we bring 
down some liquid natural gas in big ships from the north, which 
would be the U.S., and build some new generating capacity? It 
would bring down the cost of electricity dramatically and the 
folks in Puerto Rico could actually cleanup their air and their 
environment as well.
    And I know this is not all on the Army Corps, the 
Department of Energy has requirements here and expectations 
here, but my dad used to say use some common sense. That would 
be, in my judgment, using some common sense.
    But for folks in Puerto Rico who are still struggling, I am 
glad that we are still concerned. We want them to know that we 
are still concerned. I hope to talk to Governor Rosello 
tomorrow about this. But for the work that has been done on 
their behalf in some cases, without a lot of thanks, we want to 
say thanks to those people who have been helping and the 
businesses that have been helped.
    The last thing I want to mention, if I could, Mr. Chairman, 
I mentioned earlier in my statement, Mr. Fisher and General, 
that the people of Delaware have had just a wonderful 
relationship for years with the Philadelphia Office of the Army 
Corps of Engineers. We have been very, very grateful for the 
work that they do and their responsiveness.
    My staff tells me that sometimes they experience 
frustration in being able to obtain timely information from the 
Corps Headquarters staff and other regions. Maybe you don't 
have the folks or maybe you are just not aware of this, but I 
said give me an example, and they could give me several 
examples. They have written them down here. I am not going to 
take the time now, I am out of time, to go through them, but I 
just want to flag it and I will follow with a QFR, question for 
the record, and I will actually give you some specifics here.
    But that is it for me, folks, and we thank you for being 
here.
    Ryan, when I became Governor of Delaware, they asked me, if 
I had a magic wand, what would I do with my magic wand. I had 
just been elected; hadn't even been sworn in. They said what 
would you like to use with a magic wand, and I was with Mike 
Castle. He had been Governor; he was just about to become a 
Congressman. We were just trading places; I had been a 
Congressman and was about to become Governor. And I said, if I 
had a magic wand as a new Governor, I think I would like to 
have a magic wand that would enable me to make sure that every 
kid growing up in my State has at least one good nurturing, 
mentoring, caring parent with high expectations for that child, 
at least one. Hopefully two, but at least one.
    I was inaugurated as Governor a couple weeks later and I 
got in my office, opened up my desk where I looked for the 
magic wand, but didn't find it. Didn't find it. And we have 
done a whole lot of things in 8 years to try to make sure that 
we are doing what we need to do to strengthen families. That 
was what we did for 8 years, strengthened families; basic 
building block of our society.
    You are new. When you go look in your office drawer and you 
are looking around for a magic wand, you probably could use one 
that would cough up about $200 billion in infrastructure 
improvements over the next decade. That would be about $20 
billion a year. I don't know that we can do that, but, Mr. 
Chairman, we have to do better than this. We have to do better 
than this if we are serious. I am serious; I know you are as 
well. We have to do better than this.
    General Semonite. Senator Carper, if I could just make one 
comment. You said earlier about how is the Committee doing on 
funding. I just want to make sure that both of you understand 
our appreciation for the delt that you do give us. Regardless 
of what comes in the budget, that extra money, we distribute 
that through the workplan. It is not billions and billions and 
billions of dollars, but I will tell you what, we go very, very 
hard to make sure we are finding the best ways to use that; and 
that extra money, last year it was about $1.2 billion, it pays 
an awful lot of dividends back into some of these projects, so 
I personally want to thank you for that extra commitment.
    Senator Carper. You are welcome. Thank you.
    Senator Barrasso. And, General, if you can't find a magic 
wand, we are hoping that you can find some scissors to cut 
through some of the government red tape that I hear about from 
communities, as well, trying to solve these problems.
    Is there anything that you need in terms of potential 
statutory authorities that could help improve the Corps' and 
local communities' ability to complete work on water resource 
infrastructure in a more efficient and maybe cost-effective 
way? Anything you can think of we can do for you?
    General Semonite. Senator, I will be honest with you. I 
have never been in a Senator's or Representative's office where 
they haven't offered that same thing; what can we do to give 
you some advice. We are certainly looking at how we can do it. 
We have done a lot of work in the last couple months of 
figuring out what are some of those things we can ask for you. 
I think the single biggest issue is probably that benefit-cost 
ratio. How can we somehow get some degree of relief there? And 
you and I talked about this last year. How do we make sure that 
that money is going to the right place even if in fact the 
arbitrary metric doesn't necessarily apply? So, I think that is 
where we have to look at some innovative solutions. And, again, 
we aren't looking at the pot is going to necessarily get any 
bigger, but how can we make sure some of those projects that 
are very, very viable at least compete better for funding.
    Senator Barrasso. And following up with a final question 
for Mr. Fisher, just in terms of ability to complete projects, 
as opposed to partially built projects and lengthy 
constructions that drag on and on, I am interested in learning 
your view on how the Corps can work to help ensure the projects 
included in any potential WRDA bill are built to completion 
using kind of efficient funding streams to provide for much of 
the project funds up-front, rather than every year trying to 
get additional funding. Anything that you have, any thoughts on 
that?
    Mr. Fisher. I think it would be similar to my answer at the 
opening of the hearing about the CAP 205 program you 
referenced. We want to keep using those contributed funds 
authorities that are out there. We want to look at public-
private partnerships and non-Federal investment in these things 
as a way to innovatively move these projects from WRDA to 
completion.
    Senator Barrasso. It doesn't look like there are any more 
questions today, to be asked today, but, as Senator Carper 
said, he may put in some written questions. Other members may 
put in some additional questions for the record, so the hearing 
record is going to remain open for 2 weeks.
    But I want to thank both of you for being here for your 
testimony and for your time.
    The hearing is adjourned.
    [Whereupon, at 1:51 p.m. the Committee was adjourned.]
    [Additional material submitted for the record follows.]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                 [all]
</pre></body></html>
